TN

C@OCKLE

. E-Mail Address:
Le ga I Briefs contact@cocklelegalbriefs.com
Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

CENTER FOR IMMIGRATION STUDIES,
Petitioner,
v.
RICHARD COHEN AND HEIDI BEIRICH,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3189 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL MOTARY-State of Sebraska
RENEE J, GOSS
My Comm. Exp. September 5, 2023

  
    

Ce ee

Notary Public Affiant 39830

 

 
